HHS/OIG-Audit--"Follow-up to Report on Changes Are Needed in the Way
Medicare Pays for Clinical Laboratory Tests, (A-09-93-00056)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up to Report on Changes Are Needed in the Way Medicare Pays for
Clinical Laboratory Tests," (A-09-93-00056)
January 24, 1996
Complete Text of Report is available in PDF format
(1.3 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
A prior audit report disclosed that Medicare, which pays for laboratory tests
based on fee schedules, was paying nearly twice as much as physicians pay for
the same tests. Much of the difference was attributable to the way in which
Medicare reimbursed groups of tests ordered as a package by physicians. While
laboratories offered groups of tests to physicians at greatly reduced prices,
Medicare usually paid the fee schedule rates for the individual tests. Our follow-up
audit showed that Medicare continues to pay clinical laboratories more than
physicians pay for the same tests. However, recent legislation will reduce Medicare
fees for clinical laboratory tests to 76 percent of the national average in
1996. We are, therefore, recommending that the Health Care Financing Administration
periodically evaluate the national fee schedule to ensure that it is in line
with the prices physicians pay for clinical laboratory services.